     TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                Legislative Requirements Were Met
                                When Awarding Credits and Grants
                                  for the Qualifying Therapeutic
                                    Discovery Project Program



                                              September 14, 2011

                                      Reference Number: 2011-40-100




         This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
          and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/ Return Information
2(f) = Risk Circumvention of Agency Regulation or Statute




   Phone Number | 202-622-6500
   Email Address | TIGTACommunications@tigta.treas.gov
   Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


LEGISLATIVE REQUIREMENTS WERE                         Applications for Certification of Qualified
MET WHEN AWARDING CREDITS AND                         Investments Eligible for Credits and Grants
GRANTS FOR THE QUALIFYING                             Under the Qualifying Therapeutic Discovery
THERAPEUTIC DISCOVERY PROJECT                         Project Program (Form 8942). Of the 5,663
                                                      Forms 8942 received, 4,606 (81.3 percent) were
PROGRAM
                                                      approved for a credit or grant.
                                                      All QTDP Program certified applicants were
Highlights                                            listed by State on IRS.gov, as required by law.
                                                      The IRS has internally revised and corrected the
Final Report issued on September 14,                  number of entities receiving credits or grants,
2011                                                  but it has not updated IRS.gov since
                                                      November 1, 2010.
Highlights of Reference Number: 2011-40-100           The IRS prepared numerous documents that
to the Internal Revenue Service Commissioner          record the process for implementing the QTDP
for the Small Business/Self-Employed Division.        Program. These documents will be helpful for
IMPACT ON TAXPAYERS                                   implementing future unique and similar projects.

The Qualifying Therapeutic Discovery Project          A compliance plan was developed and is being
(QTDP) Program is a tax benefit (a credit or a        implemented. The plan includes reviewing the
grant) targeted to therapeutic discovery projects     tax returns of taxpayers who accepted QTDP
that show a reasonable potential to: 1) result in     Program credits and grants. The IRS mailed
new therapies to treat areas of unmet medical         326 letters to grant recipients that had not yet
need; 2) reduce the long-term growth of health        filed an amended Tax Year 2009 tax return.
care costs; and 3) advance the goal of curing         WHAT TIGTA RECOMMENDED
cancer within 30 years. The QTDP Program’s
tax benefit is available only to taxpayers with       TIGTA recommended that the Commissioner,
no more than 250 employees and covers up              Small Business/Self-Employed Division, ensure:
to 50 percent of a taxpayer’s qualified               1) the information regarding the applicant names
investment. The Internal Revenue Service (IRS)        and amounts allocated are updated on IRS.gov
distributed $1 billion in credits and grants to       to accurately show which taxpayers and projects
4,606 recipients.                                     were originally awarded QTDP Program credits
                                                      and grants; and 2) the QTDP Program line item
WHY TIGTA DID THE AUDIT                               is removed from Investment Credit (Form 3468)
This audit was initiated to determine whether the     after a determination is made that all QTDP
QTDP Program met legislative requirements             Program taxpayers have filed their Tax
when considering and awarding credits and             Year 2010 returns.
grants to qualifying therapeutic discovery project    The IRS agreed with the recommendations. The
applicants, and whether the IRS implemented           IRS plans to: 1) update the information on
adequate controls to monitor the credits and          IRS.gov regarding the applicant names and
grants.                                               amounts allocated through July 31, 2011; and
WHAT TIGTA FOUND                                      2) by July 15, 2012, make a final update to
                                                      IRS.gov to reflect any activity from August 1,
The IRS met legislative requirements when             2011, to the end of the QTDP Program.
awarding credits and grants to QTDP Program           Concerning the second recommendation, the
recipients. Despite the unprecedented short           IRS has notified the Forms and Publications
time period allotted by the law for creating the      function of the need to remove the QTDP
QTDP Program, the IRS achieved its goal.              Program line from Form 3468 once it has
                                                      determined that all QTDP Program taxpayers
The IRS team administering the QTDP Program,          have filed their Tax Year 2010 returns.
in consultation with the Department of Health
and Human Services, processed 5,663
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 14, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Legislative Requirements Were Met
                              When Awarding Credits and Grants for the Qualifying Therapeutic
                              Discovery Project Program (Audit # 201140040)

 This report presents the results of our review to determine whether the Qualifying Therapeutic
 Discovery Project Program met legislative requirements when considering and awarding credits
 and grants to qualifying therapeutic discovery project applicants. We also determined whether
 the Internal Revenue Service implemented adequate controls to monitor the credits and grants.
 This audit was added to our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Implementing Health Care and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                     Legislative Requirements Were Met When Awarding Credits and
                     Grants for the Qualifying Therapeutic Discovery Project Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Legislative Requirements Were Met When Awarding
          Credits and Grants to Qualifying Therapeutic Discovery
          Project Program Recipients........................................................................... Page 4
                    Recommendation 1:........................................................ Page 13

          Some Award Recipients Owe Federal Taxes................................................ Page 13
          A Compliance Plan to Monitor Credit and Grant
          Recipient Tax Returns Is Being Implemented .............................................. Page 14
                    Recommendation 2:........................................................ Page 16


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Application for Certification of Qualified Investments
          Eligible for Credits and Grants Under the Qualifying Therapeutic
          Discovery Project Program .......................................................................... Page 21
          Appendix V – Credits and Grants Distributed by State ................................ Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
       Legislative Requirements Were Met When Awarding Credits and
       Grants for the Qualifying Therapeutic Discovery Project Program




                       Abbreviations

HHS              Department of Health and Human Services
IRS              Internal Revenue Service
QTDP             Qualifying Therapeutic Discovery Project
                  Legislative Requirements Were Met When Awarding Credits and
                  Grants for the Qualifying Therapeutic Discovery Project Program




                                               Background

The Qualifying Therapeutic Discovery Project (QTDP) Program is a tax benefit (a tax credit or
grant) to small firms that show significant potential to produce new and cost-saving therapies,
support United States jobs, and increase United States competitiveness. A Qualifying
Therapeutic Discovery Project is a project that is designed to:
1. Treat or prevent diseases or conditions by conducting pre-clinical activities, clinical trials,
   and clinical studies, or carrying out research protocols, for the purpose of securing approval
   of a product under section 505(b) of the Federal Food, Drug, and Cosmetic Act1 or section
   351(a) of the Public Health Services Act.2
2. Diagnose diseases or conditions or to determine molecular factors related to diseases or
   conditions by developing molecular diagnostics to guide therapeutic decisions.
3. Develop a product, process, or technology to further the delivery or administration of
   therapeutics.
The QTDP Program is targeted to projects that show a reasonable potential to:
                                                   •   Result in new therapies to treat areas of unmet
      On June 18, 2010, the Internal                   medical need or prevent, detect, or treat chronic
    Revenue Service announced it was                   or acute diseases and conditions.
    accepting applications for the new
             QTDP Program.                         •   Reduce the long-term growth of health care
                                                       costs in the United States.
    “This new tax credit was designed
     to promote medical research that              •   Significantly advance the goal of curing cancer
       could improve health and save                   within 30 years.
      lives,” Internal Revenue Service
    Commissioner Doug Shulman said.             Allocation of the credit or grant included consideration
      “I encourage taxpayers that are           of which projects showed the greatest potential to create
      involved in this groundbreaking
                                                and sustain high-quality, high-paying United States jobs
           type of work to apply.”
                                                and to advance United States competitiveness in life,
                                                biological, and medical sciences.
The QTDP Program is part of the new health care law, the Patient Protection and Affordable
Care Act of 2010,3 and is included in Internal Revenue Code Section 48D. The Internal Revenue
Service (IRS), in consultation with the United States Department of Health and Human Services

1
  Pub. L. No. 75-717, 52 Stat. 1040 (1938).
2
  Pub. L. No. 78-410, 58 Stat. 682 (1944).
3
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
                                                                                                  Page 1
                  Legislative Requirements Were Met When Awarding Credits and
                  Grants for the Qualifying Therapeutic Discovery Project Program



(HHS), implemented the QTDP Program. The IRS entered into an agreement with the HHS to
pay more than $1.5 million to the HHS for its review of packages that taxpayers submitted
requesting a credit or a grant during the period June 25 to September 30, 2010.
The QTDP Program’s tax benefit is available only to taxpayers with no more than
250 employees. It covers up to 50 percent of a taxpayer’s qualified investment. To provide an
immediate boost to United States biomedical research, the credit or grant was available for
qualified investments made, or to be made, in Tax Years4 2009 and 2010.
To claim the credit or grant, a taxpayer must have applied for certification of its qualified
investments. The amount of the credit or grant was limited to a maximum of $5 million per
taxpayer, and the total amount available to all taxpayers was limited to $1 billion.
Application Process
IRS Notice 2010-45, released on May 21, 2010, established the Program as required by law, and
described the application process taxpayers were to use to have a therapeutic discovery project
certified as eligible for a credit or grant. Applicants were instructed to submit an Application for
Certification of Qualified Investments Eligible for Credits and Grants Under the Qualifying
Therapeutic Discovery Project Program (Form 8942).5 Form 8942 had to be postmarked no later
than July 21, 2010, and had to include a Project Information Memorandum. The Memorandum
should provide an overview of the project, including a description of the product, process, or
technology under development. The law required that the IRS issue certifications by
October 29, 2010.
The IRS could certify an applicant’s qualified investment as eligible under the QTDP Program,
only if:
    •   The HHS determined the applicant’s project qualified as a therapeutic discovery project.
    •   The HHS determined the applicant’s project showed reasonable potential to: a) result in
        new therapies (i) treat areas of unmet medical need or (ii) prevent, detect, or treat chronic
        or acute diseases and conditions; b) reduce long-term health care costs in the United
        States; or c) significantly advance the goal of curing cancer within the 30-year period
        beginning on May 21, 2010.
    •   The IRS determined that the applicant’s project was among those projects that have the
        greatest potential to: a) create and sustain (directly or indirectly) high-quality,
        high-paying jobs in the United States; and b) advance United States competitiveness in
        the fields of life, biological, and medical sciences.


4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
5
  See Appendix IV for a copy of Form 8942.
                                                                                                          Page 2
              Legislative Requirements Were Met When Awarding Credits and
              Grants for the Qualifying Therapeutic Discovery Project Program



This review was performed at the Small Business/Self-Employed Division Headquarters in
Lanham, Maryland; the Accounts Management and Campus Compliance Operations, Cincinnati
functions in Covington, Kentucky; and the Small Business/Self-Employed Division Campus
Compliance Operations function in Ogden, Utah, during the period November 2010 through
May 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
               Legislative Requirements Were Met When Awarding Credits and
               Grants for the Qualifying Therapeutic Discovery Project Program




                                Results of Review

Legislative Requirements Were Met When Awarding Credits and
Grants to Qualifying Therapeutic Discovery Project Program
Recipients
The IRS achieved its Program goals and met legislative requirements when awarding credits and
grants to QTDP Program recipients. Within 3 months of the enactment of the law, the IRS
established the QTDP Program and began soliciting applications. Within 8 months, it had
awarded the credits and grants.
The law required that no later than 60 days after       Within 3 months of the enactment
the date of the enactment of the law,                    of the law, the IRS established
                                                         the QTDP Program and began
March 23, 2010, the IRS, in consultation with the
                                                             soliciting applications.
HHS, was to establish a QTDP Program.
Immediately after the law was enacted, the IRS
quickly established the process and procedures for implementing the law. The IRS:
   •   Set up the necessary infrastructure to solicit and process applications. A QTDP Program
       Implementation Team was formed and included more than 60 employees during the
       planning and processing phases.
   •   Developed interagency procedures and agreements.
   •   Developed a flowchart, guidelines, and procedures to process applications and award the
       credits and grants.
   •   Developed Form 8942 and instructions, ensuring it accurately captured the elements of
       the law.
   •   Established an executive steering committee comprised of representatives from the IRS
       and the HHS to coordinate the technical review of Project Information Memorandums.
   •   Established a dedicated email address staffed by subject matter experts trained
       specifically on the QTDP Program and law. This facilitated the exchange of information
       with potential applicants and responses to questions from those either receiving or denied
       credits or grants.
   •   Established controls and a database to manage and track the applications.
   •   Created and implemented a communication initiative, including press releases, frequently
       asked questions, and fact sheets.
                                                                                           Page 4
                Legislative Requirements Were Met When Awarding Credits and
                Grants for the Qualifying Therapeutic Discovery Project Program



   •    Established the QTDP Program on the HHS Payment Management System to facilitate
        grant payments. This system provides online disbursement, grant monitoring and
        reporting, and cash management services to both awarding agencies and grant recipients.
   •    Created and mailed letters to all credit or grant recipients advising them of their
        respective awards and of their filing requirements. The letters were tailored to the
        recipients with attachments including highlighted key information.
Figure 1 shows the milestones for the QTDP Program from establishment of the Program to
November 3, 2010, when the Program recipients were announced.
                            Figure 1: QTDP Program Milestones




       Source: IRS news releases and the QTDP Program Implementation Team.

The QTDP Program Implementation Team conducted 156 stakeholder presentations and
produced 11 external and 4 internal articles.



                                                                                               Page 5
                    Legislative Requirements Were Met When Awarding Credits and
                    Grants for the Qualifying Therapeutic Discovery Project Program



The cost of implementing the QTDP Program and processing Forms 8942 was approximately
$5.4 million in Fiscal Year 2010 and approximately $0.8 million for Fiscal Year 2011, as of
January 31, 2011. In addition, more than $1.5 million was paid to the HHS for determining
whether the taxpayer projects met the health care requirements. The cost to the IRS was about
$1,360 for each Form 8942 processed.
Of the 5,663 Forms 8942 received, 4,606 (81.3 percent) projects were certified and awarded
either a credit or a grant. Figure 2 shows the number of applications initially processed and the
amounts and types of the awards initially granted.
                      Figure 2: Initial Number of QTDP Program Credit and
                          Grant Applications (as of November 1, 2010)

                   Number of Applications Received                    5,663            100.0%

                   Not Certified by the HHS                           1,025            18.1%

                   Not Certified by the IRS                              32             0.6%

                   Number Approved for Credits/Grants                 4,606            81.3%

                   Grants Awarded                                     4,516            98.0%

                   Credits Awarded                                       90             2.0%

                   Total Amount Awarded                                  $1,000,000,000

                  Source: IRS analysis of credits and grants as of November 1, 2010.

After announcing the recipients of the awards, the QTDP Program Implementation Team
identified processing errors and some applicants questioned why they had not received awards.
Subsequently, the IRS and the HHS reviewed the applications again and determined four projects
qualified for awards.
In addition, after the credits and grants were posted to IRS.gov, 20 award recipients requested
that their awards be changed from credits to grants and/or from grants to credits.6
       •   16 taxpayers with 21 projects that received credits for Tax Year 2009 amended their
           applications to request grants for Tax Year 2010.
       • *********************1***********************************************
           ***************.



6
    As of April 29, 2011.
                                                                                                Page 6
                  Legislative Requirements Were Met When Awarding Credits and
                  Grants for the Qualifying Therapeutic Discovery Project Program



    • *******************************1***********************************
        *******************************.
Sixty taxpayers (76 projects) amended their applications to reduce qualified expenses and,
therefore, reduce the award amounts. In addition, 11 award recipients (13 projects) have
amended their applications to withdraw completely from the QTDP Program. This happened
because the projects were not undertaken as planned. Form 8942 instructions advise applicants
to:
        File an amended Form 8942 to correct the amount of qualified investment previously reported if
        the applicant requested a grant. If the applicant requested a grant and amount of actual costs
        paid or incurred for qualified investment is less than the amount included on line 35, for which
        certification was requested, file an amended Form 8942 within 15 days after the close of the
        applicant’s tax year to show the actual costs paid or incurred for qualified investment.

Figure 3 reflects the disposition of awards as of April 30, 2011.
                  Figure 3: QTDP Program Credit and Grant Dispositions

                         Number of Applications Approved for
                                                                                4,5977
                         Credit or Grant
                             Grants Awarded                                      4,527
                             Credits Awarded                                        91

                         Adjusted Amount Awarded                        $991,610,727
                      Source: Our reconciliation of IRS records from November 1, 2010, to
                      April 29, 2011.

Applications were appropriately processed and most funds were correctly
distributed
The IRS had internal controls in place to track, monitor, and control all applications. For
example:
    •   Controls and procedures were documented and all documents pertaining to the Program
        were organized and centrally controlled.
    •   Integrated Data Retrieval System8 checks were performed on each applicant. Several
        applicants had no prior tax return filing history.
    •   The applicants, as required by the law, had no more than 250 employees.

7
  The number of credits and grants awarded exceeds the number of total grants because 21 projects receiving credits
in Tax Year 2009 switched to grants for Tax Year 2010.
8
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 7
                     Legislative Requirements Were Met When Awarding Credits and
                     Grants for the Qualifying Therapeutic Discovery Project Program



       •   IRS Criminal Investigation determined no applicants had criminal histories.
       •   The applicants correctly completed and signed Forms 8942.
The law stated that the credit or grant was to cover up to 50 percent of a taxpayer’s qualified
investment made or to be made in Tax Years 2009 and 2010. The IRS was not required to and
did not verify the qualified investments the applicants used to qualify for the credits or grants. It
plans to conduct compliance reviews, if necessary, to verify qualified investments.
Test results showed applications were timely processed
A statistical sample of 109 QTDP Program applications (85 certified and 24 denied) showed:
       •   All applications accepted were complete. When applications were submitted without all
           the required information, the Implementation Team followed up with the applicants to
           obtain the necessary information. The Implementation Team denied the application if all
           necessary information was not eventually acquired.
       •   None of the applicants receiving grants were specifically excluded by the Patient
           Protection and Affordable Care Act. The Act precluded a Federal, State, or local
           Government (or any political subdivision, agency, or instrumentality), a tax exempt
           organization, or others9 from receiving a therapeutic discovery project grant.
       •   No certified applicants were excluded by law from receiving Federal contracts, certain
           subcontracts, and certain Federal financial and nonfinancial assistance and benefits.
       •   All award recipients had been certified by the HHS.
       •   The amounts awarded, either as a credit or a grant, met the requirements of the law and
           were accurately calculated.
In addition, all applicants were appropriately notified and, as required by law, all 2,923 original
recipients of therapeutic discovery project credits and grants were listed by State10 on IRS.gov.
However, when the original recipients were announced and posted on IRS.gov, ***1*********
*****************************************1***********************************
****************************************1**********************************
****************1**********. The IRS has not corrected IRS.gov.
The IRS did not rank the applicants or the projects, but allocated the award money using a
multi-tier formula
After the HHS certified the projects, the IRS allocated the $1 billion award money using a
multi-tier formula. The total amount of the grant money was apportioned with the smaller


9
    A direct or indirect holder of equity or profit interest.
10
    See Appendix V for a list of the total credits and grants awarded by State.
                                                                                              Page 8
                Legislative Requirements Were Met When Awarding Credits and
                Grants for the Qualifying Therapeutic Discovery Project Program



projects under a certain amount receiving grants for the full 50 percent of their qualified
investment as allowed by law. The remaining funds were then apportioned to the remaining
applicants. This was repeated until the funds were completely allocated.
The certification and award amounts were accurate based on the formula. No award exceeded
the $5 million in credits or grants allowed by the law for any single taxpayer. *********1******
************************************************1*****************************
****************************1**********************.
Funds were generally entered correctly into the HHS Payment Management System for
distribution to the grantees
Generally, funds were correctly accounted for and information was correctly entered into the
HHS Payment Management System, which maintains and distributes the grant funds. The IRS
enters the grantees and their award amounts and grantees draw funds directly from the System
via electronic transfers.
Changes to grant amounts occurred that required the IRS to update the award amounts and
available funds on the System. *************************1**************************
*******************************************1*********************************
******************************************1**********************************
***************************************************1*************************
**********************************************1*******************************
***********************1*********************.
After the initial announcement, the IRS received inquiries from applicants questioning why
they had not received awards
The law does not provide appeal rights. Notice 2010-45 includes the following:
       Notice 2010-45, Section 7.05 No Right to a Conference or Appeal. A taxpayer does not have a
       right to a conference relating to any matters under this notice. Further, a taxpayer does not have
       a right to appeal the decisions made under this notice (including the amount of credit allocated to
       the project and whether or not to certify the project) to any official of the HHS or the Service or the
       Department of the Treasury.

However, if an inquiry was received from an applicant that was denied a credit or grant, the IRS
reviewed the application again and, if applicable, referred it to the HHS. The HHS reviewed the
actions taken on the case again to determine if an administrative error had occurred. ***1*** cases
received a second review. **************************1*******************************
s******1******************. The IRS stated that it had not checked all denied applications for
scoring errors. In four other cases, the HHS did not change its original assessment of the
projects. The IRS notified all ****1****** applicants of the final decisions.




                                                                                                      Page 9
               Legislative Requirements Were Met When Awarding Credits and
               Grants for the Qualifying Therapeutic Discovery Project Program



The complexity of the law created confusion and difficulties in administering the
QTDP Program
The law is complex and, like many laws, has special rules, includes only certain costs, excludes
certain costs and entities, requires recapturing certain credits and reducing the basis of property
by the amount of the QTDP Program credit, and sets very short time periods for implementation.
For example:
   •   Some types of entities (i.e., any Federal, State, or local government; charitable
       organization; and certain others) were excluded from receiving grants.
   •   The qualified investment could not include certain costs, including: certain employee
       remuneration; interest expenses; facility maintenance expenses (e.g., mortgage, rent,
       insurance, and maintenance); certain investments in which bonus depreciation is allowed;
       and any cost identified as a service cost under current regulations.
   •   The qualified investment includes only investments made in Tax Years 2009 or 2010.
       Thus, the qualified investment may include both amounts already paid or incurred and
       amounts that have not yet been paid or incurred at the time the application was filed.
       These qualified investments are reported on Form 8942, Part III.
   •   If the allocation of credits awarded in Tax Years 2009 or 2010 exceeds the actual amount
       of the qualified investment incurred for the qualified therapeutic discovery project, then
       the credits must be recaptured. If the amount of the grant awarded exceeds the amount
       allowable after the actual amount of qualified investment is subsequently determined,
       then recapture of some or the entire grant may be required. However, this amount would
       be recaptured as an increase in tax.
   •   The law required that the QTDP Program be implemented within a very short time
       period. Applicants had only 1 month from the date the application was posted on
       IRS.gov to submit a completed Form 8942. The IRS and the HHS had only 30 calendar
       days after the submission deadline of the applications to certify the applicants.
The complexity of the law made it difficult to develop a process that would ensure applicants
met all requirements. From June 2010 to March 2011, the QTDP Program Implementation Team
received and responded to 6,554 telephone calls and 3,206 emails with questions about the
Program. During May and June 2010, calls pertained to application preparation. Beginning in
October 2010, calls ranged from how to file amended Forms 8942 to questions about projects
that were not approved (rejected) and income tax return issues.




                                                                                           Page 10
               Legislative Requirements Were Met When Awarding Credits and
               Grants for the Qualifying Therapeutic Discovery Project Program



Certain taxpayers were required to amend their previously filed income tax returns
All taxpayers that applied for and received a QTDP Program tax credit or grant for Tax
Year 2009 and had already filed their Tax Year 2009 returns would, depending on whether they
received a credit or a grant, have to file an amended tax return to either:
   1) Reduce the amount of otherwise deductible
      expenses included on their Tax Year 2009             Certain taxpayers were required to
      return by the amount of such expenses               amend their previously filed income
      included in computing the credit and claim            tax returns, including all related
      the QTDP Program credit.                                    flow-through entities.

   2) Reduce the expenses included on their Tax
      Year 2009 return by the amount of the Tax Year 2009 certified qualified investment used
      to receive a grant.
When amending the tax return, if additional tax is owed, the taxpayer would also be subject to
interest. ******************************1***************************************
*************************************1***************************************
****************************************1****************************.

The short time period to implement the law and award the credits and grants
limited the verification of information submitted
****************************2(f)********************************************
***************************2(f)********************************************
*****2(f)****. The law required that consideration be given to those projects that showed the
greatest potential to:
   1) Create and sustain (directly or indirectly) high-quality, high-paying jobs in the United
      States.
   2) Advance United States competitiveness in the fields of life, biological, and medical
      sciences.
********************************2(f)******************************************
********************************2(f)*****************************************
*******************************2(f)******************************************
*****************************2(f)*********************.




                                                                                          Page 11
                Legislative Requirements Were Met When Awarding Credits and
                Grants for the Qualifying Therapeutic Discovery Project Program



                             Figure 3: Excerpt From Form 8942




     Source: Form 8942 and IRS.gov.

*****************2(f)********************************************************
*****************************2(f)****************************.
   • ***************************2(f)***************************************
       ***************************2(f)************************.
   • **************************2(f)****************************************
       ***************************2(f)**************************.
   • ******************************2(f)*************************************
       *****************2(f)********************.
****************************************2(f)*********************************
********************************************2(f)******************************
*****************************************2(f)********************************
***********************************************2(f)************************. In
addition, Form 8942 also contains a Penalties of Perjury Statement that required the signer to
declare he or she has examined the application, including the accompanying documents, and, to
the best of his or her knowledge and belief, all of the facts contained therein are true, correct, and
complete.
The short time period may also have affected the outcome of the QTDP Program
The rejection rate of HHS Small Business Innovative Research health care projects is about
70 percent compared to approximately 20 percent for the QTDP Program. The Small Business
Innovative Research Program was created to ensure that small businesses received a greater

                                                                                             Page 12
                   Legislative Requirements Were Met When Awarding Credits and
                   Grants for the Qualifying Therapeutic Discovery Project Program



share of Federal research and development awards. The
greater than 80 percent acceptance rate of the QTDP
Program was attributed to the streamlined procedures and         The rejection rate of HHS Small
an expedited process of review.                                  Business Innovative Research
                                                                  health care projects is about
********************2(f)*********************                       70 percent compared to
********************2(f)**********************                    approximately 20 percent for
********************2(f)**********************                         the QTDP Program.
*********************2(f)**********************
************************************2(f)************************************.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
ensure the information regarding the applicant names and amounts allocated are updated on
IRS.gov to accurately show the recipients and projects awarded QTDP Program credits and
grants.
           Management’s Response: IRS management agreed with the recommendation.
           The IRS will update the information on IRS.gov regarding the applicant names and
           amounts allocated through July 31, 2011. The IRS will also make a final update to
           IRS.gov to reflect any activity from August 1, 2011, to the end of the QTDP Program.

Some Award Recipients Owe Federal Taxes
Eighteen QTDP Program grant recipients owe approximately $800,000 in delinquent taxes,11
extending as far back as Tax Year 2005. These 18 recipients received more than $5 milllion in
QTDP Program grants. ****************************1****************************
*******1**************. See Figure 4 for the range of grants and the amount of taxes owed.




11
     As of May 25, 2011.
                                                                                           Page 13
                  Legislative Requirements Were Met When Awarding Credits and
                  Grants for the Qualifying Therapeutic Discovery Project Program



                           Figure 4: Range of Grants and Taxes Owed
                                                                     Taxes and
                                   Range of Grants
                                                                   Penalties Owed
                                      <$250,000                         $528,619
                                 $250,000 - $349,999                    $102,826

                                 $350,000 - $499,999                    $115,120
                                 $500,000 - $749,999                      $10,210

                                $750,000 - $1,000,000                     $36,874
                               Total Delinquent Taxes                   $793,649
                           Source: Our analysis of QTDP Program records.

The majority of the $793,649 delinquent taxes is for employment taxes (Federal income tax
withholding, Social Security and Medicare taxes, and Federal unemployment tax). However, it
also includes ********************************1********************************
***********************1*******************.
These taxes are owed by the organizations that received the QTDP Program grants. The
Affordable Care Act did not require that applicants or award reciptients be compliant with their
Federal tax obligations or not have any outstanding unpaid taxes. The IRS verified the Taxpayer
Identification Numbers for all applicants and validated certain other information submitted that
was available on IRS computer systems but not whether the applicants had paid all their Federal
taxes.

A Compliance Plan to Monitor Credit and Grant Recipient Tax Returns
Is Being Implemented
The QTDP Program Implementation Team drafted a Compliance Plan that includes a review of
the tax returns filed by taxpayers that accepted QTDP Program credits and grants. The
Compliance Plan includes procedures to determine
whether taxpayers that did not apply for a credit or grant
attempt to claim an investment credit.                       The IRS developed a compliance
                                                                               plan to review tax returns of
Certain transaction and action codes12 were to be posted to        taxpayers that accepted
the Tax Years 2009 and 2010 accounts of the respective                credits and grants.
QTDP Program applicants. In addition, the applicants’
tax accounts were to be updated to reflect the amount of the approved credit or grant or denial of

12
   Transaction Codes are used to identify a transaction being processed and to maintain a history of actions posted to
a taxpayer’s account on the Master File. Action Codes provide additional definitions for certain Transaction Codes.
                                                                                                             Page 14
                     Legislative Requirements Were Met When Awarding Credits and
                     Grants for the Qualifying Therapeutic Discovery Project Program



the credit or grant. For flow-through entities, partners and shareholders will be identified so their
accounts can be updated.
The IRS currently plans to review tax account transcripts13 to classify and select tax
returns for a limited scope examination. The tax returns will be sent to the IRS Small
Business/Self-Employed Division’s Abusive Transaction and Technical Issues function for
screening. If warranted, the tax return will be sent for a field examination.
Applicants that have already filed their Tax Year 2009 returns and received a credit for Tax
Year 2009 were advised to file amended returns and to include the credit on the General
Business Credit (Form 3800). Taxpayers are advised to annotate Form 3468 (Investment
Credit), which is then reviewed by the IRS for accuracy. For applicants filing Tax Year 2010 tax
returns, a line was added to the Form 3468 and the QTDP credit amount is to be carried over to
Form 3800. Tax Year 2010 taxpayers are required to project qualified expenditures.
As of April 18, 2011, the IRS has mailed 326 letters to grant recipients that have not filed an
amended Tax Year 2009 return. Although there were about 2,000 applicants that have yet to file
amended returns, the IRS stated most do not appear to have an additional tax liability due to
large, unused losses or a lack of taxable receipts. The IRS will also be reviewing all QTDP
Program credit recipients’ tax returns to ensure they have included a corresponding reduction in
qualifying expenses on amended returns for those recipients claiming Tax Year 2009 credits.
Specific Compliance Initiative Projects, which will focus on grant recipients, are also planned to
identify potential noncompliance. The amount of the qualified expenditures reported on
Form 8942 will be verified.
********************************2(f)***************************************
***************************2(f)*****************************************:
       • *******************************2(f)**********************************
           ********************************2(f)*********************************
           ********************2(f)***************************.
       • *********************************2(f)**********************************
           ***********************************2(f)******************************.
       • *******************************2(f)***********************************
           *******************2(f)*****************************************.
In addition, once the IRS determines all eligible taxpayers have filed their Tax Year 2010 tax
returns, the IRS should remove the QTDP Program line item from Form 3468. This would



13
     Transcripts provide most of the information contained in a tax return.
14
     A tax module is part of a taxpayer’s account that reflects tax data for one tax type and one tax period.
                                                                                                                Page 15
              Legislative Requirements Were Met When Awarding Credits and
              Grants for the Qualifying Therapeutic Discovery Project Program



prevent unscrupulous taxpayers from using the form to claim QTDP Program investment credits
for which they are not entitled.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
ensure the QTDP Program line item is removed from Form 3468 after it is determined that all
QTDP Program taxpayers have filed their Tax Year 2010 returns.
       Management’s Response: IRS management agreed with the recommendation. The
       IRS has notified the Forms and Publications function of the need to remove the QTDP
       Program line from Form 3468. The IRS will request such action once it has determined
       that all QTDP Program taxpayers have filed their Tax Year 2010 returns.




                                                                                      Page 16
                   Legislative Requirements Were Met When Awarding Credits and
                   Grants for the Qualifying Therapeutic Discovery Project Program



                                                                                          Appendix I

          Detailed Objectives, Scope, and Methodology

Our overall objective was to determine whether the QTDP Program met legislative requirements
when considering and awarding credits and grants to QTDP Program applicants. We also
determined whether the IRS implemented adequate controls to monitor the credits and grants.
To accomplish our objectives, we:
I.         Obtained a clear understanding of the law and its requirements by reviewing the laws and
           related Committee reports; IRS notices, forms, and publications; and all IRS
           communications to taxpayers and news releases relating to the Program. We also
           discussed the concerns and challenges with administration of the Program with the IRS
           and HHS officials responsible for the Program.
II.        Determined whether the IRS complied with the laws establishing the Program and
           certifying applicants.
           A. Determined whether the IRS communication and application process complied with
              the law and was sufficient to ensure all taxpayers wanting to apply were able to apply.
           B. Determined whether the verification of applicant information performed prior to the
              awards was adequate to ensure compliance with all laws.
III.       Selected a statistically valid sample of 96 applicants from a population of 5,663 QDTP
           Program applicants. We oversampled by 13 applicants to ensure the sample selected
           included a representative number of denied and approved applications. The result of the
           oversample brought the total applicants selected to 109. We used a ±5 percent precision
           level, a 90 percent confidence interval, and a 10 percent error rate to select the statistical
           sample. The sample was used to determine:
           A. Whether applicants met the criteria for receiving the QTDP Program credit or grant.
           B. Whether Applications for Certification of Qualified Investments Eligible for Credits
              and Grants Under the Qualifying Therapeutic Discovery Project Program
              (Form 8942)1 were accurate and complete.
           C. Whether the applicants were recorded accurately on the QTDP Program database.
              We assessed the reliability of the QTDP Program database by matching 10 taxpayer
              applications to all fields to determine any inaccuracies or missing data.


1
    See Appendix IV for a copy of Form 8942.
                                                                                                  Page 17
                  Legislative Requirements Were Met When Awarding Credits and
                  Grants for the Qualifying Therapeutic Discovery Project Program



         D. Whether any of the sample applicants were on the Excluded Parties List System.2
         E. Whether approved applicants were posted to IRS.gov.
         F. Whether the proper posting of transaction and action codes3 and denial and approval
            results were accurately posted to the taxpayers’ accounts.
         G. Whether taxpayers correctly filed amended and/or original tax returns as required, to
            offset credits taken for expenditures.
         H. Whether the applicant awards were correctly posted to the HHS Payment
            Management System. We assessed the reliability of the HHS Payment Management
            System by assessing data validation performed by the database administrator and by
            verifying the contents and relationship of the data fields.
         I. Whether there were any tax liabilities for the QTDP Program applicants. We
            assessed the reliability of IRS Integrated Collection System4 used to determine if
            there were Federal tax liabilities. We matched applicant data to the IRS Integrated
            Collection System and to the IRS Integrated Data Retrieval System5 to determine if
            the information was accurate and consistent.
IV.      Determined whether internal controls were and are in place to accurately distribute and
         track funds allocated to the recipients.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s policies, procedures, and
practices relative to implementing the QTDP Program and processing the applications. We
evaluated related controls by assessing the internal control environment, interviewing IRS and
HHS officials, and reviewing QTDP Program management reports. We also assessed the QTDP
Program database developed for recording and tracking QTDP Program applications.



2
  A worldwide web site, provided as a public service by the General Services Administration, for the purpose of
disseminating information on parties excluded from receiving Federal contracts, certain subcontracts, and certain
Federal financial and nonfinancial assistance and benefits.
3
  Transaction Codes are used to identify a transaction being processed and to maintain a history of actions posted to
a taxpayer’s account on the Master File. Action Codes provide additional definitions for certain transaction codes.
4
  An automated system used to control and monitor delinquent tax cases assigned to IRS employees.
5
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 18
              Legislative Requirements Were Met When Awarding Credits and
              Grants for the Qualifying Therapeutic Discovery Project Program



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Tracy Harper, Lead Auditor
Tanya Adams, Senior Auditor
Jerry Douglas, Senior Auditor
Kathy Coote, Auditor
Johnathan Elder, Auditor
Nelva Usher, Auditor




                                                                                    Page 19
              Legislative Requirements Were Met When Awarding Credits and
              Grants for the Qualifying Therapeutic Discovery Project Program



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Campus Compliance Operations, Cincinnati, Small Business/Self-Employed Division
SE:S:CCS:CCO:CIN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief Technology Officer OS:CTO
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI




                                                                                   Page 20
        Legislative Requirements Were Met When Awarding Credits and
        Grants for the Qualifying Therapeutic Discovery Project Program



                                                          Appendix IV

Application for Certification of Qualified Investments
 Eligible for Credits and Grants Under the Qualifying
       Therapeutic Discovery Project Program




                                                                 Page 21
      Legislative Requirements Were Met When Awarding Credits and
      Grants for the Qualifying Therapeutic Discovery Project Program




Source: IRS.gov and Form 8942.


                                                               Page 22
                     Legislative Requirements Were Met When Awarding Credits and
                     Grants for the Qualifying Therapeutic Discovery Project Program



                                                                                                         Appendix V

                   Credits and Grants Distributed by State1

                                               Credits                                          Grants

                              Tax Year 2009          Tax Year 2010            Tax Year 2009           Tax Year 2010

    Alabama                         $294,009                     $376              $3,132,530                $575,775
    Arizona                         $749,192                $352,576               $4,342,604              $3,645,232
    Arkansas                                                                        $535,229                 $195,065
    California                    $2,218,169              $1,084,667            $214,448,844              $63,640,722
    Colorado                        $362,108                $126,851             $15,790,023               $6,986,495
    Connecticut                     $520,019                $509,003             $11,500,143               $2,562,681
    Delaware                                                                       $1,047,339              $1,177,462
    District of Columbia            $451,115                $244,479                $377,597                 $342,494
    Florida                         $102,657                $239,306             $16,709,462               $9,507,260
               2
    Foreign                                                                         $733,438
    Georgia                         $244,479                                     $10,554,302               $4,856,124
    Hawaii                                                                         $3,916,381                $871,969
    Illinois                         $84,816                 $95,347               $8,985,727              $5,178,174
    Indiana                                                                        $7,198,044              $3,111,122
    Iowa                                                                           $1,427,740                $343,488
    Kansas                                                                         $2,476,966              $1,554,290
    Kentucky                        $578,894                $154,544               $2,395,705              $1,896,883
    Louisiana                       $127,834                $116,645               $1,633,927                $504,540
    Maine                           $217,486                $117,118                $149,768                  $82,019
    Maryland                        $244,479                                     $35,437,612              $13,330,875
    Massachusetts                 $2,391,671                $253,279             $96,270,166              $29,695,570
    Michigan                                                                     $11,287,706               $7,086,991
    Minnesota                       $226,991                $461,968             $14,311,920               $8,907,998
    Mississippi                                                                     $463,796                 $461,023
    Missouri                        $244,479                                       $4,828,826              $2,892,649
    Montana                         $239,204                $249,754                $885,792                 $411,179



1
    These data do not reflect the updates of the applicants that changed tax credits to grants and grants to tax credits.
2
    Three grants were issued to foreign entities.
                                                                                                                  Page 23
                     Legislative Requirements Were Met When Awarding Credits and
                     Grants for the Qualifying Therapeutic Discovery Project Program




                                             Credits                                         Grants

                            Tax Year 2009         Tax Year 2010          Tax Year 2009            Tax Year 2010

    Nebraska                       $39,145              $205,334                $1,101,229              $1,072,500
    Nevada                                                                      $1,214,502              $1,888,782
    New Hampshire                                                                $836,591               $1,807,359
    New Jersey                    $365,479              $123,479               $41,091,787             $10,864,362
    New Mexico                                                                  $3,043,477              $1,682,399
    New York                      $308,689              $147,249               $32,774,141             $15,240,814
    North Carolina                                                             $27,547,804              $8,487,967
    North Dakota                                                                 $296,494                $436,943
    Ohio                          $696,067                $87,495               $9,104,250              $6,022,597
    Oklahoma                                                                    $1,833,173              $1,152,365
    Oregon                                                                      $3,714,454              $1,732,863
    Pennsylvania                  $576,527              $645,869               $32,723,388             $15,381,713
    Rhode Island                  $120,704              $123,309                $3,104,983              $1,453,645
    South Carolina                                                              $1,172,404              $1,415,873
    South Dakota                                                                  $11,738                $232,742
    Tennessee                                           $244,479                $5,042,706              $1,688,745
    Texas                       $1,000,995              $188,668               $22,160,281             $11,974,635
    Utah                           $17,834                $35,892               $8,302,851              $4,381,667
    Vermont                                                                      $120,659                $123,820
    Virginia                      $352,198                $13,820               $6,706,613              $4,019,720
    Washington                                                                 $24,695,119              $9,407,220
    West Virginia                                                                $392,379                 $96,580
    Wisconsin                      $12,975              $120,156                $8,490,228              $4,563,893
            3
    Totals                     $12,788,214             $5,941,662          $706,322,840               $274,947,284

Source: Data posted to IRS.gov, dated November 2010.




3
    Due to rounding, the totals may not equal the sum of the column amounts.

                                                                                                              Page 24
              Legislative Requirements Were Met When Awarding Credits and 

              Grants for the Qualifying Therapeutic Discovery Project Program 



 
                                                                                        Appendix VI

           Management’s Response to the Draft Report

                                     DEPARTMENT OF THE TREASURY

                                      INTERNAL REVENUE SERVICE

                                        WASHINGTON, D.C. 20224


            COMMISSIONER 

SMALL BUSINESS/SELF-EMPLOYED DIVISION 





                                             AUG 18 2011

MEMORANDUM FOR MICHAEL R. PHILLIPS
                  DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                        Faris R. Fink /s/ Faris R. Fink
                             Commissioner, Small Business/Self-Employed Division

SUBJECT:                      Draft Audit Report - Legislative Requirements Were Met When Awarding
                              Grants and Tax Credits for the Qualifying Therapeutic Discovery Project
                              Program (201140040)

Thank you for the opportunity to review TIGTA's draft report titled: "Legislative Requirements Were Met
When Awarding Grants and Tax Credits for the Qualifying Therapeutic Discovery Project Program."

We appreciate your acknowledgement of our efforts to implement this legislation within an extraordinarily
short timeframe. As highlighted in your report, we established the Qualifying Therapeutic Discovery
Project (QTDP) Program and began soliciting applications within 3 months of enactment of the law, and
awarded credits and grants to certified applicants within 8 months of enactment. To satisfy the objectives of
this program, we established the necessary infrastructure to receive, process, and review applications within
a short period of time. We also developed interagency procedures and agreements, created Form 8942 and
instructions, created internal training materials, and provided a variety of external communications. As a
result of our efforts, we received and were able to timely process over 5,663 applications and approve
4,606 credits and grants in lieu of credits to certified applicants.

All credits and grants in lieu of credits were awarded and timely published on IRS.gov by state in
accordance with the statutory timeframe. As your report notes, however, updates are needed to reflect the
actual results of the program based on events subsequent to the initial web posting. For example, following
the initial posting, the IRS discovered that ********1****************************** and three
additional taxpayers' projects were subsequently certified and notified accordingly. In concurrence with
your recommendation, we will update the published list to reflect these subsequent events.
Legislative Requirements Were Met When Awarding Credits and
Grants for the Qualifying Therapeutic Discovery Project Program




                                                         Page 26
Legislative Requirements Were Met When Awarding Credits and
Grants for the Qualifying Therapeutic Discovery Project Program




                                                         Page 27
